HHS/OIG, Audit - "Medicaid Payments for Services Provided to
Beneficiaries With Concurrent Eligibility in Florida and Georgia for July 1,
2005, Through June 30, 2006," (A-04-08-00034)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Payments for Services
Provided to Beneficiaries With Concurrent Eligibility in Florida and Georgia for
July 1, 2005, Through June 30, 2006," (A-04-08-03034)
June 3, 2008
Complete
Text of Report is available in PDF format (747 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For the period July 1, 2005,
through June 30, 2006, we estimate that the Florida Agency for Health Care
Administration (the State agency) paid $3.7 million ($2.2
million Federal share) on behalf of
beneficiaries who should not have been eligible due to their Medicaid
eligibility in Georgia.  Medicaid eligibility in each State is based on
residency.  If a resident of one State subsequently establishes residency in
another State, the beneficiarys Medicaid eligibility in the previous State
should end.  From a statistical random sample of 100 beneficiary-months totaling
$77,000 in Medicaid services, the State agency made payments for 68
beneficiary-months totaling $68,000 for services
provided to beneficiaries who should not have been eligible to receive Medicaid
benefits in Florida.  Twenty-five beneficiary-months were for services to
beneficiaries who were eligible to receive the benefit.  For the remaining seven
beneficiary-months totaling $522, we could not determine the
beneficiaries eligibility based on the documentation that the State provided.
We
recommended that the State agency work with the Georgia Medicaid agency to share
available Medicaid eligibility information for use in determining accurate
beneficiary eligibility status and reducing the amount of payments made on
behalf of beneficiaries residing in Georgia.  We also
recommended that the State agency work with CMS to determine the residency of beneficiaries
whose eligibility could not be determined.  The State agency deferred formal comments to the Florida
Department of Children and Families (DCF), which DCF
generally disagreed with our findings and recommendations.  However, nothing
in the comments prompted
changes to our findings or recommendations.